2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

fT

@OCKLE

Legal Briefs

E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com
No. 19-551
RONALD CALZONE,
Petitioner,

v.

ERIC T. OLSON, in his official capacity as

Superintendent of the Missouri State Highway Patrol,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2501 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

bcs C ble Quah, ble

Notary Public Affiant 39229
